No. _______
In The

Supreme Court of the United States
--------------------------

---------------------------

KYLE STEPHEN THOMPSON,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
--------------------------

--------------------------

ON PETITION FOR WRIT OF CERTIORARI TO
THE MARYLAND COURT OF APPEALS
--------------------------

--------------------------

PETITION FOR WRIT OF CERTIORARI
--------------------------

--------------------------

Stephen B. Mercer
Counsel of Record
RAQUINMERCER LLC
5906 Hubbard Drive
Rockville, Maryland 20852
(301) 880-9250
steve@raquinmercer.com
Counsel for Petitioner
THE LEX GROUPDC

Dated: February 22, 2021

1050 Connecticut Avenue, N.W. Suite 500, #5190 Washington, D.C. 20036
(202) 955-0001 (800) 856-4419 www.thelexgroup.com

i
QUESTION PRESENTED
Under Franks v. Delaware, 438 U.S. 154
(1978), if a defendant makes a substantial
preliminary showing that (1) the affiant for a search
warrant
intentionally, or with reckless disregard for the
false statement is necessary to the finding of probable
cause, the Fourth Amendment requires the court to
request. Id. at 155-56, 171. Courts reviewing a
Franks hearing frequently
address the materiality prong first by excising the
challenged statements from the affidavit to determine
if the remainder of the affidavit contains probable
cause. In this context, the following question is
presented for review:
When a court considers a request for a Franks
hearing by excising the challenged statements in the
warrant application, does the court review the
remaining statements for probable cause under a de
novo standard of review?

ii
PARTIES TO PROCEEDING AND
RELATED CASES
The parties to the proceeding in this Court
appear on the cover of the petition. There is a related
proceeding between the same petitioner and the
United States:
United States v. Kyle Stephen Thompson,
United States District Court, District of
Maryland, TDC-8-17-cr-00195-001. Judgment
entered on January 30, 2019.
United States v. Kyle Stephen Thompson,
United States Court of Appeals for the
Fourth Circuit, No. 19-4085. Judgment
entered on April 6, 2020. Reconsideration
denied on May 27, 2020. Petition in this
Court for a writ of certiorari to the Fourth
Circuit filed on October 23, 2020. No. 20-555,
and denied on December 7, 2020.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED FOR REVIEW ................. i
When a court considers a request for a
Franks hearing by excising the challenged
statements in the warrant application, does
the court review the remaining statements
for probable cause under a de novo standard
of review?
PARTIES TO PROCEEDING AND RELATED
CASES ......................................................................... ii
TABLE OF AUTHORITIES ....................................... v
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ................................................... 1
JURISDICTIONAL STATEMENT ............................ 1
CONSTITUTIONAL
AND
STATUTORY
PROVISIONS INVOLVED......................................... 2
STATEMENT OF THE CASE ................................... 2
REASONS FOR GRANTING THE WRIT ................. 5
Maryland s Intermediate Appellate Court
Created a Conflict with Federal Courts of
Appeals Regarding the Standard of Review
for a Franks Challenge .......................................... 5
CONCLUSION ........................................................... 9

iv
APPENDIX
Thompson v. Maryland,
238 A.3d 276,
2020 WL 6036447 (Md. 2020) ........................ 1a
Thompson v. Maryland,
226 A.2d 871 (Md. App. 2020) ....................... 2a
Transcript of Oral Decision of the
Circuit Court for Montgomery County, Maryland
entered September 25, 2018 ........................ 52a
Redacted Search Warrant Application
dated March 17, 2017 .................................. 59a

v
TABLE OF AUTHORITIES
Page(s)
CASES
Commonwealth v. Long,
911 N.E.2d 174 (Mass. 2009) ................................ 7
Franks v. Delaware,
438 U.S. 154 (1978) ..................................... passim
Illinois v. Gates,
462 U.S. 213 (1983) ........................................... 5, 7
People v. Hebert,
46 P.3d 473 (Colo. 2002) ........................................ 7
State v. Buccini,
810 P.2d 178 (Az. 1991) ......................................... 7
United States v. Allen,
631 F.3d 164 (4th Cir. 2011) ................................. 6
United States v. Elkins,
300 F.3d 638 (6th Cir. 2002) ................................. 6
United States v. Harris,
464 F.3d 733 (7th Cir. 2006) ................................. 7
United States v. Karo,
468 U.S. 705 (1984) ............................................... 7
United States v. Morehead,
959 F.2d 1489 (10th Cir. 1992) ............................. 6

vi
CONSTITUTIONAL PROVISION
U.S. CONST. amend. IV .................................... i, 2, 7, 8
STATUTE
28 U.S.C. ยง 1257(a) ..................................................... 2

IN THE
SUPREME COURT OF THE UNITED STATES

KYLE STEPHEN THOMPSON, PETITIONER
v.
MARYLAND

ON PETITION FOR WRIT OF CERTIORARI
TO THE MARYLAND COURT OF APPEALS

PETITION FOR WRIT OF CERTIORARI
Kyle Stephen Thompson respectfully petitions
for a writ of certiorari to review the judgment of the
Maryland Court of Special Appeals.
OPINIONS BELOW
The opinion of the Maryland Court of Special
Appeals is published at 226 A.3d 871 (Md. App. 2020).
Pet. App. 2a. The Court of Appeals order to deny
review is published at 238 A.3d 276, 2020 WL
6036447 (2020). Pet. App. 1a. The opinion of the
circuit court is unpublished and contained in the
appendix. Pet. App. 52a.
JURISDICTIONAL STATEMENT
The Maryland Court of Appeals entered its
judgment in this case on September 25, 2020. Pet.

2
App. 1a. The jurisdiction of this Court is invoked
pursuant to 28 U.S.C. ยง 1257(a).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The
The Fourth Amendment provides
right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched and the person or
things to be seized
STATEMENT OF THE CASE
On April 13, 2017, a state grand jury for the
circuit court of Montgomery County returned an
indictment charging Mr. Thompson with 78 counts of
sex abuse of a minor and related offenses primarily
depicted in 18 videos recorded of him engaging in
sexually explicit conduct with three young girls. That
evidence was seized from Mr. Thompson
under a circuit court search warrant that was issued
on March 17, 2017, by the Honorable Ronald B.
Rubin. Pet. App. 59a. (Redacted Affidavit).
Mr. Thompson initially challenged the
sufficiency of the March 17 th application for a search
warrant. After new information about the veracity of
the affidavit came to light in the parallel federal
prosecution for production of child pornography, Mr.
Thompson requested a hearing under Franks v.
Delaware, 438 U.S. 154 (1978). On September 25,
2018, the circuit court (Hon. Terrance J. McGann),

3

App. 52a (9/25/18 Tr.).

Franks hearing. Pet.

On October 3, 2018, Mr. Thompson entered a
conditional guilty plea to ten counts of the indictment,
preserving his right to appeal the orders denying his
motion to suppress. On March 8, 2019, the court
sentenced Mr. Thompson to three consecutive life
terms plus 145 years, consecutive to his federal
sentence of 5,040 months of imprisonment that was
imposed on January 30, 2019, following his trial and
conviction in the U.S. District Court for the District of
Maryland, on 18 counts of production of child
pornography. The judgment of the circuit court was
affirmed by the Court of Special Appeals on April 7,
2020, in a reported opinion. (Pet. App. 2a). On
declined to review the matter. (Pet. App. 1a).
1.
In the circuit court, Mr. Thompson challenged
the accuracy of the search warrant affidavit for his
home under Franks. In a detailed statement of
reasons, Mr. Thompson alleged the affiant included
false statements in the search warrant affidavit late
in the drafting process because the affiant believed
the warrant application lacked probable cause. First,
Pet. App. 68a). Moreover, and
second, the affiant falsely stated that a child victim of
Mr. Thompson
confidential informant that Mr. Thompson had
abused the child at hi
that the
mother lied to police about it. (Id. at
69a).

4
2.
These misstatements were material to a
finding of probable cause because it provided the
nexus to Mr. Thompson
affiant to claim an earlier police report and child
protective
services
report
corroborated
the
n. Notably, neither record
contained Mr. Thompson
his address.
A reasonable judge reviewing the affidavit could only
reliable because the informant apparently acquired
the knowledge about sexual abuse at Mr. Thompson
home from the child and directly conveyed that
information to the affiant.
3.
Mr. Thompson
representation that she interviewed the informant
knowledge regarding the nexus of criminal activity
and his home. The State responded with information
from outside the four corners of the affidavit. It
the Franks hearing in the parallel federal prosecution
for the production of child pornography to show that
any misstatements by the affiant were innocent. 1 On
that basis, the State argued the affiant had first-hand
knowledge of everything the confidential informant
said during the interviews. The State also argued that
any misattribution of information to the informant
about abuse at the Mr. Thompson
negligence. Without conducting an evidentiary
United States v. Kyle Stephen Thompson, Case No. 17-CR00195-TDC. Mr. Thompson also requested a Franks hearing in

1

request, heard testimony from the affiant, and ultimately denied
relief.

5

and the intermediate appellate court affirmed. (Pet.
App. 2a, 52a).
4.
appellate court assessed the materiality of the
remainder of allegedly false statements by
substituting an earlier draft version of the affidavit
the
Pet. App. 32a. The panel removed the

basis upon which to find probable cause. Pet. App.
50a.
This petition follows.
REASONS FOR GRANTING THE WRIT
Maryland s Intermediate Appellate Court
Created a Conflict with Federal Courts of
Appeals Regarding the Standard of
Review for a Franks Challenge
creates a conflict with
federal courts of appeals over the appropriate level of
deference a reviewing court gives to the issuing
original finding of probable cause when
assessing the materiality of a challenged statement
under Franks. To be sure, a reviewing court ordinarily
probable cause. Illinois v. Gates, 462 U.S. 213, 236
(1983). Still, such deference is inappropriate where,
as here, statements that are presumed to be false
have been excised from the affidavit. Franks

6
emphasizes the importance of truthful information to
the neutral detached magistrate who must determine
whether there is probable cause. Franks, 438 U.S. at
165.
For reasons of judicial efficiency, often a
reviewing court will jump to the pivotal question
whether an affidavit with the challenged statements
removed would provide a basis for a finding of
probable cause. When a reviewing court obviates the
need to directly address the falsity of the challenged
statements by striking them from the affidavit,
fidelity to the appropriate standard of review for
assessing their materiality is vital. For example, the
Sixth and Tenth Circuits hold that de novo review is
warranted in the Franks context to determine the
materiality of the challenged statements. See, United
States v. Elkins, 300 F.3d 638 (6th Cir. 2002) (
sufficienc
sufficiency of the affidavit here, since at least one
portion of it has been validly redacted as recklessly
United States v. Morehead, 959
F.2d 1489 (10th Cir. 1992).
The Fourth and Seventh Circuits are in accord
with the Sixth and Tenth Circuits. The Fourth and
Seventh Circuits hold that the movant on a Franks
request establishes the challenged statements are
material by making a substantial preliminary
showing that the remainder of the search warrant
affidavit was not sufficient to establish probable
cause. United States v. Allen, 631 F.3d 164, 171 (4th
Cir. 2011) (
Franks hearing,
however, the accused must make a substantial

7
preliminary showing
statements, the affidavit cannot support a probable
; United States v. Harris, 464 F.3d
733, 738 (7th Cir. 2006) (same).
The highest courts of Arizona, Colorado, and
Massachusetts agree that substantial deference to
the
inappropriate. See, State v. Buccini, 810 P.2d 178 (Az.
1991); People v. Hebert, 46 P.3d 473 (Colo. 2002)
never had the opportunity in the first place to
consider the exact mix of facts remaining and now
redacted affidavit is sufficient to establish probable
Commonwealth v. Long, 911 N.E.2d 174

Moreover, this Court has applied the Franks
standard where a warrant has been approved in
reliance on an affidavit containing information
obtained through illegal surveillance. See, United
States v. Karo, 468 U.S. 705 (1984). In Karo the Court
held that warrantless monitoring of a beeper in a
private residence violated the Fourth Amendment,
but that a warrant obtained on the strength of an
affidavit containing information gathered through
fficient
untainted evidence was presented in the warrant
Id. at 719. The
previously articulated in Gates, 462 U.S. at 238-39.

8
The lower court
and in
conflict with these authorities. It presumed a
falsehood in the affidavit and then rehabilitated it by
process of eliminating the misstatements and giving
cause that relied on the false statements. Franks
requires the opposite. The materiality of the false
statements is judged based on the remainder of
information within the warrant affidavit not
information outside of the four corners. Franks, 438
U.S. at 171e
statements are set aside, the rule in Franks requires
a fresh look at the existence of probable cause.
It is unwise for a reviewing court to
rehabilitate an affidavit by excising false statements
assessment of the probable cause. This is not a
nuanced rule in a niche area of criminal law, but
effectively reduces a request for a Franks hearing to
legal obsolescence. There should not exist a different
Fourth Amendment standard for Marylanders in
state court as opposed to federal court.
In summary, under Franks, if a defendant
makes a substantial preliminary showing at a preFranks hearing that (1) the affiant included
statement knowingly and intentionally, or with
affidavit, and (2) the allegedly false statement is
necessary to the finding of probable cause, the Fourth
Amendment requires the court to conduct an
438
U.S. at 155-56, 171. Here, a common-sense, plain
reading of the search warrant affidavit is that the
affiant, Sgt. Thompkins, directly acquired information

9
from the confidential source, who claimed that one of
the victims disclosed that she had been abused at
of probable cause because they showed that she had
first-hand knowledge from the source about the
cruci
The Court should grant the instant petition
and review the decision of
intermediate
appellate court.
CONCLUSION
This case presents the Court an opportunity to
resolve the conflict that the lower court has created
with federal circuits and other state courts of last
resort and provide authoritative guidance to the
courts below on an important and recurring question.
In the public interest, the petition for issuance of a
writ of certiorari should, respectfully, be granted.
Respectfully Submitted,
STEPHEN B. MERCER
Counsel of Record for Petitioner
RaquinMercer LLC
5906 Hubbard Drive
Rockville, MD 20852
(301) 880-9250
Steve@RaquinMercer.com

APPENDIX

1a
[ENTERED: September 25, 2020]
IN THE COURT OF APPEALS OF MARYLAND
Petition Docket No. 154
September Term, 2020
(No. 198, Sept. Term, 2019
Court of Special Appeals)
(No. 131547C, Circuit Court
for Montgomery County)
KYLE STEPHEN THOMPSON
v.
STATE OF MARYLAND
ORDER
Upon consideration of the petition for a writ of
certiorari to the Court of Special Appeals, the errata,
and the answers filed thereto, in the above-captioned
case, it is this 25th day of September, 2020
ORDERED, by the Court of Appeals of
Maryland, that the petition be, and it is hereby,
DENIED as there has been no showing that review by
certiorari is desirable and in the public interest.
/s/ Mary Ellen Barbera
Chief Judge

2a
[ENTERED: April 7, 2020]
Circuit Court for Montgomery County
Case No. 131547(Criminal)
REPORTED
IN THE COURT OF SPECIAL APPEALS
OF MARYLAND
No. 0198
September Term, 2019
KYLE THOMPSON
v.
STATE OF MARYLAND
Leahy,
Wells,
Sharer, J. Frederick
(Senior Judge, Specially Assigned)
JJ.
Opinion by Wells, J.
Filed: April 7, 2020

3a
Appellant, Kyle Thompson, appeals from the
motion for a Franks hearing and its denial of his
challenge to the sufficiency of a search warrant. The
court found Thompson had failed to make the
required showing that the affiant-police officer made
false statements that led a judge to find probable
esents two questions for
our review, which we reproduce verbatim:
Whether the court below erred when it
under Franks v. Delaware, 438 U.S. 154
(1978), regarding the veracity of the
he
search warrant affidavit?
Whether the court below erred when it
sufficiency of the March 17, 2017, search
warrant for his residence?
For the reasons discuss below, we answer each
question in the negative and affirm the judgment of
the circuit court.
BACKGROUND
Police Receive Information from a
Confidential Informant and Prepare a
Search Warrant Affidavit
On the evening of March 16, 2017, the Special
Victims Investigation Division of the Montgomery
County Police, Maryland Police Department

4a

assault of a minor. The FBI emailed Sergeant
conversation that the FBI had with a confidential
h 15.1 Those details alleged,
among other things, that a few days prior Thompson
showed the C.I. videos of him sexually assaulting his
2.
four-yearThat evening, MCPD detectives made four
phone calls to the C.I.: First, a thirty- two (32) minute,
recorded phone call from the desk of Michelle Sears of
Montgomery County Child Protection Services
joined by D
supervised by Sgt. Tompkins; second, a five- minute
third, a
seven-minute unrecorded phone call from the desk of
Det. Avelar to the C.I.; and finally, another fiveminute
to the C.I. In discovery, a prosecutor admitted to the
defense that while Sgt. Tompkins was not present for
the first and main interview, she was present for at
least one of the shorter, unrecorded phone calls placed
The record indicates the C.I. was previously unknown
to law enforcement. Although she asked that her name remain
private, she provided police with her name, address, phone
number, and employer. Thus, she is more aptly described as a
source.
1

For clarity in reviewing this opinion alongside the
record, we adopt the same pseudonyms used in the record:
-year old daughter o
ex-girlfriend, whom the warrant affidavit alleged Thompson
2

four-year-old daughter, who is also the younger half-sister of
Victim A.

5a

phone call, Sears printed a 2015 CPS report that
appeared to detail sexual assault allegations by
-sister) against
Thompson.
Following these phone calls, Det. Avelar
drafted an application for a search warrant and emailed it to Sgt. Tompkins at 1:40AM on March 17,
2017. Part of the investigation summary provided:
On March 16, 2017, the writer
interviewed the anonymous source.
***
The source further stated that
Thompson had previously sexually
a few years back; [Victim A] was
approximately 9 years old when he
sexually abused her. The writer
conducted a check with Child Protective
Services and other police agencies and
was able to corroborate the information
given by the source regarding [Victim A].
The writer found a sexual abuse report
from Baltimore County Police from
October 2015. The report stated [Victim
lied to the Police and Child Protective
Services of not knowing his full name
and where about (sic). [Victim A]
disclosed the abuse happened when her

6a
located
on
Ballinger
Burtonsville, MD.

Terrace,

Thompson
stated
the
abuse[]
happened in a wooded area near his
[house]
in
Montgomery
County,
Maryland.
The next day, March 17, 2017, while Det.
Avelar went to Baltimore County to review forensic
was in the MCPD office revising the search warrant
affidavit. Later that day, Sgt. Tompkins appeared
before Judge Ronald Rubin with the revised search
warrant application, now containing her signature
investigative summary, with revisions emphasized,
now read as follows:
On March 16, 2017, the writer
interviewed the anonymous source.
***
The source further stated that
Thompson had previously sexually
a few years prior. [Victim A] was
approximately 9 years old when he
sexually abused her. The writer
conducted a check with Child Protective
Services and other police agencies and
could corroborate the information given
by the source regarding [Victim A]. The
writer found a sexual abuse report from
Baltimore County Police from October 9,

7a
2015. The report stated [Victim A] was
Anonymous source
related that
the Police and Child Protective Services,
relating that she did not know the
Anonymous source stated that
[Victim A] disclosed that the abuse
happened when her and her mother
Ballinger Terrace, Burtonsville, MD.
Thompson stated to the anonymous
source the above abuse happened in a
wooded area near his house in
Montgomery County, Maryland.
(emphasis added). Notably, even this final affidavit

warrant.
MCPD Obtains a Search Warrant,
Seizes Evidence, and the State Charges
Thompson
With the search warrant in hand, the police
videos of sexual assaults as described by the C.I. On
April 13, 2017 a grand jury for the Circuit Court of
Montgomery County returned an indictment charging
Thompson with 78 counts of sexual abuse of a minor
and related sex offenses based primarily on the videos
obtained in the se

8a

appearance on April 17, 2017. On June 30, 2017,
counsel filed a Motion to Suppress Evidence and a
Motion to Suppress a Custodial Statement.
Thompson withdrew those motions without prejudice
on January 11, 2018 and agreed with the State that
unless the case was resolved via a plea agreement the
State would consent to a hearing on those motions. On
May 24, 2018, another attorney entered a line of
appearance on behalf of Thompson, and on June 6,

During this time, a parallel federal case
commenced in the United States District Court for the
District of Maryland. Thompson was represented by
the same attorneys.
Franks
Hearing is Denied
On July 23, 2018, Thompson filed a request for
a Franks hearing asserting that, based on
information he had only recently learned in the
federal case, Sgt. Tompkins intentionally misled the
issuing judge in her affidavit. Thompson specifically
Sgt. Tompkins had not been present for the main
phone interview Sears and Det. Avelar conducted
with the C.I. The State filed its opposition on August
15, 2018. On September 24, 2018, the day before the
circuit court held a hearing to consider the Franks
motion, Thompson supplemented his reply brief with
several draft affidavits from Det. Avelar and Sgt.

9a
Tompkins as further proof that Sgt. Tompkins
intentionally misled Judge Rubin.
At the hearing, discussion between the court
interviewing the C.I. and the accuracy of the phrasing
revisions. No witnesses were called.
Franks
hearing was waived under Maryland Rule 4-252,
which required filing of mandatory motions such as a
Franks request, within thirty (30) days of April 17 th,

suppress evidence, including a custodial statement,
and had authored an article on Franks hearings, his
failure to request a Franks hearing could not have
been an error.
Second, the court also ruled on the merits. It
explained that based on its review of the evidence and
case law, it found Thompson had not met his burden
of showing that Sgt. Tompkins made false or reckless
statements such that those statements established
probable cause. The court addressed the heart of the
reviewing court that you interviewed someone when
you participated in sitting there listening and
[passing] notes as the detective, Sergeant Tompkins
draft revisions made by Sgt. Tompkins. It concluded
by denying the motion.

10a
On October 2, 2018, the circuit court also
search warrant. The following day, Thompson entered
a conditional guilty plea before Judge McGann to ten
counts of the indictment and preserved his right to
appeal the orders denying his motions to suppress. On
March 8, 2019, Judge McGann sentenced Thompson
to three consecutive life terms plus 145 years,
consecutive to his federal sentence of 5,040 months
imposed after his conviction on 18 counts of
production of child pornography. Thompson then
motion for a Franks hearing and his challenge to the
sufficiency of the search warrant.
DISCUSSION
Waiver of Motion for a Franks Hearing
Thompson asserts the circuit court erred in
denying his motion for a Franks hearing. Thompson
points out that although the court found his July 23,
2018 motion was not timely filed, it nonetheless
considered and decided the merits of his request. In
his initial brief, Thompson does not address waiver
but reserved the right to respond in a reply brief. No
reply brief was filed. We do note Thompson argued
excuse the late filing of the motion, in that the defense
did not become aware until June 29, 2018 through the
parallel federal case that Sgt. Tompkins was not

violated Maryland Rule 4-252, in that it was filed
fourteen (14) months past the thirty (30) day deadline

11a
for filing a mandatory motion. The State also disputes
excusing the late filing. The State says the defense
April 24, 2018, more than one year prior to
Franks
hearing. The State adds that Thompson was not
provided with the draft affidavits until after he filed
his Franks hearing motion, so those documents could
have played no role in his decision to file the motion.
failure to file a motion was excused up until June 29,
2018, his July 23, 2018 motion for a Franks hearing
still would have been untimely, since Rule 4-252(b)
requires that when discovery provides the basis for a
motion, the motion must be filed within five days after
discovery is furnished.
for a Franks hearing was not timely filed. Rule 4252(a)-(b), Motions in Circuit Court, provides:
Mandatory Motions. In the circuit
court, the following matters shall be
raised by motion in conformity with this
Rule and if not so raised are waived
unless the court, for good cause shown,
orders otherwise:
A defect in the institution of the
prosecution;
A defect in the charging
document other than its failure to show
jurisdiction in the court or its failure to
charge an offense;

12a
An unlawful search, seizure,
interception of wire or oral communication,
or pretrial identification;
An unlawfully obtained admission,
statement, or confession; and
A request for joint or separate
trial of defendants or offenses.
Time for Filing Mandatory Motions.
A motion under section (a) of this Rule
shall be filed within 30 days after the
earlier of the appearance of counsel or
the first appearance of the defendant
before the court pursuant to Rule 4213(c), except when discovery discloses
the basis for a motion, the motion may
be filed within five days after the
discovery is furnished.
First, Thompson has not disputed that his
request for a Franks hearing is a mandatory motion.
Second, Thompson filed the Franks request on July
23, 2018. That date is well beyond thirty days of
appearance in court. As the circuit court correctly
provisions of Rule 4 252(b) require a motion to
suppress to be filed within 30 days of the entry of the
appearance of other counsel does not revive the 30
Allen v.
State, 91 Md. App. 775, 780 (1992). Third, his motion
also did not fall within five days of June 29, 2018, the
latest date Thompson pointed to as having acquired
new information in discovery preceding his filing of
the motion. See Rule 4-252(b). We conclude that

13a
Thompson did not meet these deadlines, and, thus,
his request for a Franks hearing was not timely.
Despite reaching this conclusion, considering
the importance of the substantive issues and because
the circuit court decided the merits of the motion, we
exercise our discretion consistent with Rule 8-131(a)
and review the
the issues have been thoroughly briefed and argued,
an analysis of the merits may guide trial courts and
counsel in future Franks proceedings. See Bradley v.
Bradley, 208 Md. App. 249, 257-58 (2012) (concluding
an issue was preserved where it was decided by the
trial court) (citing Md. Rule 8-131(a)).
Hearing

Franks

A. Background on Franks Hearings
It is useful to begin with a discussion of Franks
hearings generally. The procedure was born out of
Franks v. Delaware, 438 U.S. 154 (1978), where police
sought a search warrant for the home of the
defendant, Franks, on suspicion of his involvement in
a sexual assault. Id. at 157. In the search warrant
affidavit, the affiant officer stated he had personal
Id.
home pursuant to the warrant, officers se

Id. Prior
to trial Franks moved to suppress the evidence on the
ground that the warrant affidavit was inaccurate and

been personally interviewed by the warrant affiants,

14a
and that, although they might have talked to another
police officer, any information given by them to that
Id. at 158. Franks further
asserted the misstatements were included in the
Id. The trial court sustained
anything but the facial sufficiency of the affidavit and
denied his motion to suppress. Id. at 158 60. The
court admitted the evidence and Franks was
convicted. Id. at 160. The Supreme Court of Delaware
affirmed.
The United States Supreme Court granted
certiorari to address whether the trial court erred in
the statements in the affidavit. Id. at 160 61. The
Court reversed and remanded, holding a defendant
should have the ability to attack the veracity of an
Id. at 164. The Court explained
the prerequisites for and nature of what would come
to be known as a Franks hearing:
To mandate an evidentiary hearing,
than conclusory and must be supported
by more than a mere desire to crossexamine. There must be allegations of
deliberate falsehood or of reckless
disregard for the truth, and those
allegations must be accompanied by an
offer of proof. They should point out
specifically the portion of the warrant
affidavit that is claimed to be false; and

15a
they should be accompanied by a
statement of supporting reasons.
Affidavits or sworn or otherwise reliable
statements of witnesses should be
furnished, or their absence satisfactorily
explained. Allegations of negligence or
innocent mistake are insufficient.
The deliberate falsity or reckless
disregard whose impeachment is
permitted today is only that of the
affiant, not of any nongovernmental
informant.
Finally, if these requirements are
met, and if, when material that is the
subject of the alleged falsity or reckless
disregard is set to one side, there
remains sufficient content in the
warrant affidavit to support a finding of
probable cause, no hearing is required.
On the other hand, if the remaining
content is insufficient, the defendant is
entitled, under the Fourth and
Fourteenth
Amendments,
to
his
hearing. Whether he will prevail at that
hearing is, of course, another issue.
Id. at 171 72. The Court explained that if the
defendant is granted the hearing, and
the allegation of perjury or reckless
disregard is established by the
defendant by a preponderance of the
material set to one side, the affidavit's

16a
remaining content is insufficient to
establish probable cause, the search
warrant must be voided and the fruits of
the search excluded to the same extent
as if probable cause was lacking on the
face of the affidavit.
Id. at 156.
This Court first recognized the requirements
for a Franks hearing in Yeagy v. State, 63 Md. App. 1,
8 (1985). Fitzgerald v. State, 153 Md. App. 601, 644
enge an
(2003), aff d,
omission under Franks [] the accused must make a
preliminary showing that it was made intentionally
or with reckless disregard for accuracy; a negligent or
Yeagy,
63 Md. App. at 8). Our Court of Appeals aptly
explained the procedure in McDonald v. State, 347
Md. 452 (1997):
Franks v. Delaware set out a
procedure, requiring a detailed proffer
from the defense before the defendant is
even entitled to a hearing to go behind
the four corners of the warrant. Under
Franks, when a defendant makes a
substantial preliminary showing that
the affiant intentionally or recklessly
included false statements in the
supporting affidavit for a search
warrant, and that the affidavit is
insufficient to support a finding of
probable cause, the defendant is entitled
to a hearing on the matter. The burden
is on the defendant to establish knowing

17a
or reckless falsity by a preponderance of
the evidence before the evidence is
suppressed. Negligence or innocent
mistake resulting in false statements in
the affidavit is not sufficient to establish
Id. at 471.
This Court has also recognized the second
prong of the pre-Franks hearing threshold: Even upon
a substantial preliminary showing that the affiant
intentionally or recklessly made false statements, the
court must assess whether, if those statements were
removed, the remainder of the affidavit would provide
a substantial basis for finding probable cause. State v.
Jones, 103 Md. App. 548, 601 (1995) rev d on other
grounds, 343 Md. 448 (1996). In Jones we explained:
When an otherwise viable claim is
made that tainted information has
contributed to a finding of probable cause
in support of a warrant and that a Franks
hearing should, therefore, be held, the
court must engage in a hypothetical
probable cause measurement. If the
allegedly tainted information is factored
out, will the remaining untainted
information constitute probable cause or
not? If it will, the allegedly tainted
information is mere surplusage and
no Franks hearing is required.
Sometimes an appellate court, on
review, must deal with this hypothetical
assessment. It is no different, however,

18a
than any other appellate assessment of
probable cause. In the ordinary context,
Franks context, the appellate court is
the two questions is only mathematical,
not doctrinal.
Id. at 601, rev d on other grounds, 343 Md. 448 (1996)
(emphasis supplied).
In sum, there are two significant hurdles a
defendant must clear before obtaining a Franks
hearing. As Judge Moylan concluded in Fitzgerald
Franks hearing is a rare and extraordinary exception
1) that must be expressly requested and 2) that will
not be indulged unless rigorous threshold
at
642.
B.
Franks Hearing
As a threshold matter, Thompson contends the
circuit court applied the incorrect burden a
preponderance of evidence in assessing his motion
for a Franks hearing. Thompson focuses on the circuit
preliminary

sho

THE COURT: And [in order for] the
Court [ ] to grant a Franks hearing, the
defense has to make a substantial

19a
preliminary showing of a false or
reckless statement or omission. They
must further show that the alleged false
statement or omission was necessary to
a finding of probable cause.
Fitzgerald v. State
holds that a Franks hearing is a rare
and extraordinary exception. It will not
be indulged unless rigorous special
requirements have been satisfied. The
burden is on the defendant to establish
knowing or reckless falsity by a
preponderance of the evidence
before the evidence will be suppressed.
preliminary showing that he be
entitled to a Franks hearing. 140, page
57
a
preliminary showing of false or
reckless statement or omission in this
nd
that there was a false or reckless
statement or omission.

a

preliminary

showing
defense has not met its burden of
preponderance of the evidence to
show false or reckless statement or
omission. And that there was any
statements or omissions or misstatements

20a
that there were necessary to a finding of
the probable cause before Judge Rubin.
Franks hearing.
(emphasis added).
We concede it is not entirely clear whether the
court believed Thompson had to make a substantial
preliminary showing or to prove by a preponderance
of evidence that Sgt. Tompkins included materially
misleading statements in the affidavit. But given the
substantive basis for its holding
reviewing court that you interviewed someone when
you participated in sitting there listening and
[passing] notes as the detective, Sergeant Tompkins
did on
it appears that the court
would have found neither burden satisfied,
particularly since it accepted as fact that Sgt.
Tompkins did not participate in the main interview
varying burden references are not dispositive of the
burden or analysis the court applied.
In any event, we note for the sake of clarity that
Thompson is correct. The burden on the defendant in
requesting a Franks
ance of
evidence. The latter is the burden to be applied within
the Franks hearing itself, where a defendant is
permitted to go beyond the four corners of the warrant

21a
and cross-examine the affiant to prove he or she made
a materially misleading statement or omission. 3
that the circuit court erred in finding he had not made
the required showing that Sgt. Tompkins
intentionally included false statements in the search
warrant affidavit.
C.

Sgt.
Tompkins Intentionally or Recklessly
Included False Statements in the
Affidavit

intentional or reckless inclusion of misstatements in
the affidavit for clear error. See Braxton v. State, 123
Md. App. 599, 645 (1998) (applying a clearly
determination that a warrant affidavit was not
tainted by police misrepresentation under Franks v.
Delaware); Wilson v. State, 87 Md. App. 659, 668

In case of any doubt on this point, we look directly to
Franks
mentioned until discussion of the hearing itself. 438 U.S. at 156.
Further, the heavier burden of a preponderance of evidence
would not be appropriate, or perhaps even practical, to apply
until the defendant is able to obtain and provide evidence beyond
the four corners of the warrant, such as testimony of the
affiant which is not obtained until the Franks hearing. We also
cannot say what higher standard would reasonably then be
required in the Franks hearing if the defendant had already
proven by a preponderance of evidence that the affiant had been
intentionally misleading.
3

22a
erroneous in finding that there was no basis for the
1.
The main reason Thompson requested the
Franks
statement and the original narrative written by Det.
Avilar shows that Sgt. Tompkins knowingly misled
the issuing judge into believing she personally
interviewed the C.I. Thompson says this was a
magistrate may otherwise scrutinize whether second
or third-hand information from a source has been
reliably
knowingly made this misstatement given its likely

The State argues, assuming that the request
for a Franks hearing was not waived, the court below
properly ruled that Thompson failed to make the
statement, the State maintains this was not a
deliberate falsehood: Sgt. Tompkins had first-hand
knowledge of everything the C.I. said in the
interviews. The details of who was present for an
on the veracity of the challenged statement . . . or the
reliability of t
We agree with the State and explain.

23a
To support his position, Thompson relies on a
case from the Fifth Circuit, Bennett v. City of Grand
Prairie, 883 F.2d 400, 407 (5th Cir. 1989), holding
relates the information of
for this added scrutiny is that critical details can be
misconstrued or lost when information is passed
between persons.
nearly identical contention in Hounshell v. State, 61
Md. App. 364 (1985). There, the defendant argued
before the trial court that the search warrant affidavit
implied the affiant had personally interviewed all
witnesses, when some of the witnesses had been
interviewed by other officers. Id. at 379 80. The trial
court denied the motion to suppress on grounds that
police officers other than affiant . . . did not constitute
a falsehood and did not affect the veracity of the
Id. at 180. This Court agreed.
Id.
We find Hounshell
than Bennett. Although we certainly agree information
can be misconstrued when passed between persons,
obtaining his information may affect its reliability,
that concern is not manifest here. Thompson takes
issue with the fact that Sgt. Tompkins was not
present for the main interview with the C.I. We
editing the affidavit, Sgt. Tompkins need not have
relied exclusively on the relay of information from
Detectives Avelar or Sears to summarize and analyze

24a
what had been discussed; she could listen
interview herself.
The circuit court also found that Sgt. Tompkins
had been present for a subsequent unrecorded
interview and participated by passing notes and
questions to Det. Avelar, who was speaking directly
with the C.I. Although Thompson appears skeptical of
this version of events because, in his opinion, the
interviews, the motions court listened to the
arguments of counsel and was free to examine Sgt.
-byoriginal narrative and determine whether those
revisions amounted to a substantial showing that she
intentionally, or with reckless disregard, misled
Judge Rubin in light of the totality of the
circumstances.
counsel suggested that perhaps a better procedure
would have been for the motions court to have called
Sgt. Thompkins and Det. Avelar as witnesses to
assess their credibility first-hand. We leave it to the
sound discretion of the trial court how it determines
whether a defendant has made the requisite
substantial showing for a Franks hearing. We can
easily envision a recommendation from this Court to
call witnesses in such circumstances the equivalent of
a Franks hearing in all but name, rather than a
preliminary assessment of whether such a hearing is
warranted. We leave that assessment to the sound
discretion of the trial courts.

25a
2.
Thompson asserts he also made an adequate
showing that Sgt. Tompkins falsely attributed
that through a Baltimore County Police report she was
ims that Thompson
Terrace. The police report, Thompson points out, did
Finally, Thompson claims the poli
misattributed the corresponding statements to the
C.I.
The State contends Thompson provides no
proof to substantiate these claims and ignores
evidence that refutes them. The State maintains the
lived, that Victim A was abused by Thompson in the
woods while at his house, and that her mother knew
that it was occurring and lied to investigators
regarding her lack of knowledge about Thom
evidenced by the recorded call transcript. The State
address were not included in the Baltimore County
Police report, they were in the CPS Report Disposition
which is alluded to elsewhere in the affidavit. The
State says any misattribution of information to one
report instead of the other was only negligence, since
it would not have benefitted Sgt. Tompkins to cite the
wrong report.

26a
For the reasons that follow, we find no clear
error in the circuit court
failed to meet his burden, even in light of Sgt.
the C.I.
Our research yields only a few cases where
Maryland courts have reviewed the denial of a Franks
hearing, and even fewer that are capable of analogy
here. First, we note Emory v. State, 101 Md. App. 585
denial of a Franks hearing, finding the defendant
failed to make a substantial preliminary showing that
the affiant acted with reckless disregard for the truth.
Id.
defendant pointed to discrepancies between the
affidavit and the evidence turned over in discovery
not to claim the statements in question were false, but
rather that the State had not provided evidence to
support them. Id. at 632 33. This Court held this was
the defendant did not make any showing of what was
turned over in discovery, and even admitted to not
reviewing everything provided by the State. Id. at
633.
denial of a Franks hearing in Young v. State, 234 Md.
App. 720 (2017). There, the defendant disputed the
drugs to a confidential informant. Id. at 739.
Although we found dispositive that the Franks issue
was apparently resolved in chambers, we noted the
even claim[ed] intentional or reckless falsehood,

27a
which is the entire basis for a Franks
Id. We
also pointed out the defendant made only bare
allegations that the evidence was stale and that the
affiant was lying. Id. We take from Young the
importance of a proffer of evidence that will
well as
misstatement.
Here, the record before the circuit court was
extensive, and most of the discussion at the hearing
However, the parties and the court discussed three
cri
affidavit revisions attributing more information to
the C.I.:
Thompson pointed out that Sgt.
Tompkins had testified that on the
evening of March 16 th, she did not think
MCPD had probable cause. She directed
Det. Avelar to draft the affidavit, and
she made revisions the following day to
attribute some information to the C.I.
that was previously attributed to the
police report. When making these
revisions, Sgt. Tompkins did not obtain
any new information since the previous
night when Det. Avelar had written the
first draft. Thompson argued the
sequence of these events amounted to a
motive to mislead the issuing judge.
The State pointed out that it was after
the first two phone calls with the C.I.

28a
that MCPD obtained the CPS Report
(based on its 8:30PM time stamp). The
State said Sgt. Tompkins clarified with
the C.I. the details from the CPS and
police reports in the latter two phone
calls, asserting the C.I. had in fact
provided all of the information Sgt.
Tompkins attributed to her.
3. The State directed the Court to page five
of the transcript of the recorded phone
call with the C.I. (the main, thirty-twoclaim that the C.I. did not inform MCPD
about not knowing Thompson assaulted
her daughter. In that part of the
transcript the C.I. says:

each other. And he would go and
pick [mother] up . . . and the one
time she brought the little girl
[Victim A] and this was before
[mother] had his children. And,
um, he, [mother] allowed him to
take [Victim A] down in the woods
and feel her, touch her, do
whatever, and then [Victim A]
came screaming up and [mother]
do anything. But she, the mother,
was aware of what was happening.

29a
The circuit court did not address in its ruling this part
of the argument. It did state it had read what had
been filed and considered the case law, and thus had
Sgt. Tompkins had explained and she explained the
information [was] coming from an anonymous

claim in Emory. Thompson does not point to evidence
in the record that expressly refutes the claim that the
C.I. told MCPD that Thompson sexually assaulted
Victim A years ago at Ballinger Terrace and that the
mother lied to law enforcement in claiming she was
unaware of the abuse. Instead, he points to the
absence of evidence that the C.I. said any of this.
Thompson reasons, essentially, that Det. Avelar
who was present for the main interview with the C.I
attributed fewer factual statements to the C.I., and
since Sgt. Tompkins did not maintain any notes of
conversations with the C.I., there is nothing to rebut
the inference that Sgt. Tompkins was dishonest and
deliberate in attributing such statements to the C.I.
This reasoning wholly ignores the other phone
calls MCPD had with the C.I. that evening. The State
alleges the C.I. made the disputed statements in the
subsequent phone interviews phone calls the State
says MCPD made for the very purpose of
corroboration after detectives reviewed the 2015 CPS
and police reports. Thompson discounts this
argument because there is no documentation of the
content of the calls. While we cannot help but agree
that the lack of documentation in this situation is
frustrating and even concerning, it does not preclude

30a
the possibility that Sgt. Tompkins was revising the
affidavit to reflect that the C.I. had provided
additional information in a later phone call, and Sgt.
Tompkins was emphasizing the corroboration that
had occurred in a way Det. Avelar had not. We
suspect when writing affidavits, officers highlight
their strongest evidence. Of course, we do not purport
accurate. The key facts were materially true and
available to the judge in the record before him,
particularly the call transcript excerpt the State
provided at the hearing.

While we agree with
Thompson that the call transcript does not
corroborate everything said in the affidavit about
Victim A (for example, it does not mention any law
enforcement involvement related to the alleged abuse
of Victim A), he ignores the corroborative value the
transcript has in confirming the C.I. knew of the
4

full name.5 The lack of evidence for every fact
presented in the affidavit in the call transcript does
not necessarily render those facts untrue.

Thompson misstates the claim from the affidavit. It
ed to
the Police and Child Protective Services, relating that she did
4

On the next page of the call transcript, the C.I. quoted
mother, saying,
stupid,
Thompson describing
that dumb, she
even know my last
5

31a
To satisfy the required preliminary showing,
we determine Thompson would have needed to do
more than point to the absence of evidence for certain
claims in the affidavit. He needed to proffer evidence
that contradicted those statements. On the facts
before the circuit court, and the lack of evidence
directly refuting the challenged statements in the
conclusion that Thompson failed to meet his burden.
We do not end our analysis here though. We
understand that the lack of documentation of
subsequent phone calls with the C.I. may have
doubt, we will evaluate the affidavit as if Thompson
has made a substantial preliminary showing that Sgt.
the intention to materially mislead the issuing judge.
Therefore, for the next part of our analysis, we will
remove the attributions to the C.I. challenged by
Thompson to determine if the remainder of the
affidavit provides a substantial basis upon which to
find probable cause. If we find in the affirmative, we
can confidently conclude a Franks hearing would not
have been warranted in any event.
D.

In assessing the second part of the Franks
hearing threshold, we will determine whether absent
the challenged attributions in the warrant, there
would have been a substantial basis for finding
probable cause. Jones, 103 Md. App. at 601. Because

32a
second challenge on appeal is to the
statements removed, we incorporate and address
those arguments in the context of this hypothetically
excised affidavit.
We begin by laying out the relevant parts of the
misleading statements removed 6:
On March 16, 2017, The Special
Victims Investigation Division was made
aware of and began an investigation
regarding a sexual assault of a minor.
In this report it is alleged Kyle S.
Thompson, a 31-year-old male, with a
date of birth [] sexually assaulted [Child
1] a 4 year old female, with a date
of birth [] identified as his daughter.
The sexual assaults occurred at
14215 Ballinger Terrace, Burtonsville,
Montgomery County, Maryland 20866.
The reporting source would like to
remain anonymous due to fear of
retribution and will hereafter be
referred to as the anonymous source.
On March 16, 2017, the writer
interviewed the anonymous source. The
anonymous source stated Kyle S.
Thompson showed the anonymous source
several videos of Thompson [sexually
assaulting] his 4-year-old daughter,
6

We effectively revert the challenged sentences back to

33a
[Child 1] and two other unidentified
prepubescent females.
[Description of the video content]
The source further stated that
Thompson had previously sexually
a few years prior. [Victim A] was
approximately 9 years old when he
sexually abused her. The writer
conducted a check with Child Protective
Services and other police agencies and
could corroborate the information given
by the source regarding [Victim A]. The
writer found a sexual abuse report from
Baltimore County Police dated October
9, 2015. The report stated [Victim A] was
her
lied to the Police and Child Protective
Services of not knowing his full name
and where about. [Victim A] disclosed
the abuse happened when her and her
14215 Ballinger Terrace, Burtonsville,
MD.
Thompson stated the abused happen
[sic] in a wooded area near his [missing
word] in Montgomery County, Maryland.
Thompson has a history of being a
violent man. A check with MSP revealed
he owns about 15 firearms.

34a

discussion of how persons who view child
pornography store evidence of the behavior. For
example:
Through Training and experience,
subjects who view or collect child
pornography value their collections and
often go to great lengths to organize and
protect their collections including
concealing the images on computer
media. Your Affiant also knows through
training, knowledge and experience that
when
subjects
possessing
child
pornography conceal or delete it to avoid
detection that it is possible to recover
files and data from computer media in
hidden areas or after it has been deleted.
They do not limit themselves with
electronic images/videos and at times
have physical copies of some of their
images.
...
Your Affiant also knows through
training and experience that images of
child pornography can be retained via
physical items such as but not limited to;
scanned copies, photographs (to include
cutouts, and other similar physical
items.
The affidavit continues:

35a
During the initial investigation, the
affiant learned Thompson has access to
at least 15 firearms which could pose a
threat to serving police officers.
Furthermore, during the investigation,
it appears Thompson has previously
threatened individuals that make
allegations against him, which was
related to your affiant by the anonymous
source.
The affidavit concludes by requesting a search
pertaining to, but not limited to Sexual Abuse of a
Minor [ ], First Degree Sex Offense [ ], Child Porn
Promote/Distribute [ ] and Possession of Child
Thompson asserts there was not a substantial
basis for finding probable cause, because: (1) the sole
child sexual abuse and child pornography were
located at Ballinger Terrace was the information
provided by the C.I., (2) the C.I. had no history of
providing reliable information to police, and (3) in the
absence of that history, the affidavit lacked sufficient
details about the nexus to Ballinger Terrace or details
to otherwise establish the credibility of the C.I.
Thompson maintains the affidavit failed to establish
a nexus to his Ballinger Terrace address because it
did not say where the anonymous source had viewed
the videos, whether the source had ever been to
or his past or current residence at Ballinger Terrace
had been confirmed.

36a
The State counters that even if Thompson
could show that Sgt. Tompkins knowingly or
recklessly added false information to the affidavit,
such information was not necessary for finding
probable cause. The State asserts that even with the
challenged statements removed from the affidavit,
probable cause could be found in the remaining
contents, particularly because: (1) the affidavit would
still imply someone in the police department had
knowledge of the sexual assault of Victim A,
corroborated by a police report and a CPS report
would be sufficient to establish the veracity of the
the statement that Thompson told the C.I. the abuse
would permit
referred to his Ballinger Terrace address. The State
check with Maryland State Police Automated
Firearms Services System revealed Thompson owns

We agree with the State. For the reasons that
follow, we conclude that in the absence of the
challenged attributions to the C.I., the remaining
contents of the affidavit provide a substantial basis
upon which probable cause could be found.
1. Standard of Review
As we noted from Jones, supra, our review
related to probable cause after removing the

37a
potentially misleading statements from the affidavit
is no different than our review of a probable cause
determination under ordinary circumstances. Jones,
103 Md. App. at 601. A reviewing court determines
not whether there was probable cause (that is,
whether the court itself would find probable cause),
the issuing judge had a substantial basis
for concluding the warrant was supported by probable
Patterson v. State, 401 Md. 76, 89 (2007)
(emphasis added). We consider the task that was
al and
common-sense decision, given all of the circumstances
set forth in the affidavit, as to whether there exists a
fair probability that contraband or evidence of a crime
Id. at 89 (quoting
Greenstreet v. State, 392 Md. 652, 667 68 (2006)). The
standard is flexible in order to encourage police use of
warrants. State v. Jenkins, 178 Md. App. 156, 164 65
(2008).
Accordingly, appellate review of the issuing
de novo
deferential one Patterson, 401 Md. at 89 (quoting
Greenstreet
that means that, at the very least, we will accept [the
issuing judge's] implicit fact-finding, unless clearly
erroneous, and, beyond that, we will view the factual
recitations in the warrant application in the light
Ellis v. State, 185 Md.
App. 522, 534 35 (2009) (internal citations and
provided in the warrant and its accompanying
Patterson, 401 Md. at 90. The
more than a bare bones conclusory statement that the

38a
affiant has cause to suspect something, but less than
by which
appellate courts review judicial fact-finding in a trial
West v. State, 137 Md. App. 314, 323, 325
determined by the preference to be accorded to
United States v. Ventresca, 380 U.S. 102,
109 (1965).
2. Defining Probable Cause
The seminal case, Illinois v. Gates, 462 U.S.
213 (1983), instructs that probable cause is a
Id. at 231. Gates
abandoned the previously used strict two-prong test
that required definitively establishing (1) the basis of
tip (demonstrated by the credibility of the informant
or the reliability of his information). West, 137 Md.
App. at 328 (citing Aguilar v. Texas, 378 U.S. 108, 114
- oftheGates permitted the
balancing of the two factors, so that a strong showing
of one can compensate for a lesser showing of the
other. Gates, 462 U.S. at 233. This Court recognized
in Trussel v. State, 67 Md. App. 23 (1986), however,
Gates;
Id. at 29. With this principle in
mind, we will consider these factors in our
assessment. But it is clear to us that neither are
required in a fixed amount. Rather, a lesser showing
of one factor can be compensated by a stronger
showing of the other, or another indicia of veracity.

39a
3.
Thompson points out the affidavit did not contain any
information on the relationship between the C.I. and
himself. While it is true the nature of the relationship
is not specified e.g., whether the two are friends,
relatives, neighbors, etc. the affidavit demonstrates
anonymous source stated [Thompson] showed the
a
could also indicate her relationship with Thompson is
personal. This is a stronger showing of basis of
knowledge than cases where courts have found an
insufficient showing of the factor. For instance, in
Gates, police received an anonymous letter containing
a couple in your town who strictly make their living
uarantee if you
U.S. at 225. The Supreme Court affirmed the letter
was insufficient on its own to establish probable
ctions regarding the
This Court reached a similar outcome in West.
numerous complaints from several different
concerned citizens about the narcotic activity going on
inside of 4416 Marble Hall Road apt #340 by an
App. at 319. Nothing more specific was said in regard

40a
to how the citizens obtained their information. Id.
This Court concluded:
[M]entioned nowhere within the
affidavit is the basis of the concerned
complaints. The affidavit makes no
mention of whether these people are
speaking from first-hand knowledge
received through their own senses or are
merely passing on information they
heard from others. . . [A] magistrate,
when issuing a warrant, must be
presented with a more substantial
reason for relying on information than
the mere possibility that information is
the underworld or an accusation based

Id. at 331-32 (quoting Spinelli v. U.S., 393 U.S. 410,
416 (1969)). West and Gates are distinguishable from
source learned of the videos
and through direct contact with Thompson, rather
than through rumors. While this aspect on its own
does not provide a substantial basis for probable
cause, the greater showing of a basis of knowledge
here than in West and Gates could reasonably require
a lesser degree of corroboration for probable cause.
See Jenkins
verification is needed depends upon how much
to the totality of

41a
circumstances from which the issuing judge could find
probable cause.
4. Veracity:
Credibility
of
C.I.
or
Corroboration of Information from C.I.
The most frequent grounds on which courts
have found a source to be credible is when that source
has a history of providing reliable information to
police. Jenkins, 178 Md. App. at 183. It is uncontested
that the C.I. in this case had no such history.
Our courts have attributed credibility to a law
enforcement source who has not concealed their
identity, as the person is then available for follow-up
questions and can be criminally charged if the
information proves false. Jenkins, 178 Md. App. at
noting, was that the CI was not an anonymous tipster.
The CI had been arrested by the Special Operations
Division within the preceding three weeks and was
up the credibility scale, compared to an anonymous
Cross v. State, 165
Md. App. 164, 187 (2005) (explaining where the
informant had confronted law enforcement himself
position where he could be held accountable if his
that
the information was reliable was much greater than
if the information had been obtained from a truly
In reviewing the affidavit here, we note it gives
someone who provided her identity and contact

42a
information to police and could be (and was) contacted
for follow-up questions. We are mindful of our
decision in West where we explained that stating
other details, could imply the source made an
anonymous phone call to police, maintaining her
hidden identity. 137 Md. App. at 330 31. The closest
the affidavit comes to indicating that police may know
source would like to remain anonymous due to fear of
retributions and will hereafter be referred to as the
statement does not provide a substantial basis for
p the credibility
Jenkins and Cross were.
knowledge in this instance, but little to no indication
of her credibility within the four corners of the
affidavit, either corroboration of other information
from the C.I. or some other indicia of reliability is
needed. Appellate opinions reveal that the degree of
corroboration
required
is
not
universally
quantifiable. As we have said, the degree of
information to be corroborated depends on the
strength of the showing of other factors, such as the
ability and their basis of knowledge.
Jenkins, 178 Md. App. at 184. Also, corroboration of
some facts obviates the need to corroborate all others.
Id. (quoting Hignut v. State, 17 Md. App. 399, 411
been verified as true lends credence to the remaining
unverified portions of the story)).

43a
Finally, corroboration of certain types of facts
credibility, perhaps obviating the need to complete
additional corroboration. For instance, in Gates, the
(or past reliability) meant that some corroboration
was required before probable cause could be found.
462 U.S. at 227. Ultimately, through corroboration of
several facts
flight and
motel reservations and a road trip route the Court
basis of knowledge, therefore establishing probable
cause. Id. at 243 46. Notably, Gates did not require
corroboration of criminal acts; corroboration of
innocent details (that may be indicative of criminal
activity when taken together) could suffice. 462 U.S.
at 242 43. But the Court accorded significant weight
to the corroboration of details from the anonymous
sily obtained facts and
conditions existing at the time of the tip, but to future
actions of third parties ordinarily not easily
Id. at 245.
Applying the analysis in Gates to the facts here,
we determine that any substantial basis for finding
probable cause from the affidavit here hinged on
Although the affidavit does not mention any
it states that MCPD corroborated the information the
C.I. provi
assault of a young girl years prior. And beyond
from the C.I. are indicative of intimate knowledge of
that the C.I. said the victim was the older sister of his

44a

that the police report said the child was sexually
police report but is also not so obvious as to be easily
fabricated. The same can be said of the statement that
Thompson said the assault occurred in the woods.
These details were not publicly available, and thus
would not have been easily obtained by a person who
did not have a close connection to Thompson. We do
not purport to say this corroboration is independently
sufficient to establish probable cause. That question
is not before us. What we can say is that this
corroboration provides a substantial basis upon which
the issuing judge could find the C.I. credible.
5. Nexus to the Place to be Searched
We have found that the excised affidavit
provided a substantial basis upon which the issuing
judge could have found the source credible. We next
determine whether the affidavit connected Thompson
and the alleged sexual assaults to his Ballinger
Terrace home. Braxton, 123 Md. App. at 630.
We first look to Holmes v. State, 368 Md. 506
(2002), which the State referenced in its brief and
uthoritative
Joppy v. State, 232
Md. App. 510, 523 (2017). In Holmes, the petitioner
claimed the warrant affidavit failed to establish a
outside the house for which the warrant was obtained
and the house itself. 368 Md. at 512. The affidavit
stated the affiant observed the petitioner engage in a
hand-to- hand exchange that the affiant, based on his

45a
experience, concluded was a drug sale. After he
stopped the petitioner, the petitioner was in
possession of a large quantity of marijuana and
money. Id. at 519. The affiant also stated that he saw
the petitioner enter and exit the residence
immediately before the hand-to-hand exchange. Id.
Drawing on two of its own past cases, as well as
numerous cases from the federal courts of appeals,
our Court of Appeals laid out the principle that
Direct evidence that contraband
exists in the home is not required for a
search warrant; rather, probable cause
may be inferred from the type of crime,
the nature of the items sought, the
opportunity for concealment, and
reasonable inferences about where the
defendant may hide the incriminating
items.
...
[But]
the
mere
observation,
documentation, or suspicion of a
defendant's participation in criminal
activity will not necessarily suffice, by
itself, to establish probable cause that
inculpatory evidence will be found in the
home. There must be something more
that, directly or by reasonable inference,
will allow a neutral magistrate to
determine that the contraband may be
Id. at 522 23. The Court concluded that the sum of
the evidence provided in the affidavit was sufficient

46a
to connect his drug transaction to the home. Id. at
523 24.
As Judge Moylan explained in Joppy v. State,
232 Md. App. 510 (2017), the facts in Holmes provided
established
fortunatel

but Holmes does not stand for the
Id.
Id. at 524.

In Moats v. State, 455 Md. 682 (2017), the
search warrant affidavit was devoid of specific facts
linking the crime to the place to be searched.
Nevertheless, the Court of Appeals held that the
affidavit provided a substantial basis for probable
of a suspected drug distribution and a sexual assault.
Although the affidavit contained details of numerous
use and his commission of the sexual assault, there
were no statements specifically linking the suspected
Id. at 700. The
expertise a
participate in such crimes communicate via cellular
telephones, via text messages, calls, eId.
at 702. The Court was satisfied that this statement
provided a substantial basis for probable cause to
search th
contain specific facts linking the crimes to the place to
be searched. Id. at 700. Applying the rule from
Holmes
the defendant would have evidence of the sexual

47a
assault on his phone was not unreasonable, given the
prevalence of cell phones and their use as storage
Id. at
700 03. The Court also noted that because drug
distribution is a crime requiring at least two persons,
use of a cell phone in its commission would be a
Id. (quoting Gates, 462
U.S. at 231).
We compare Moats
Holmes
facts here. In the affidavit, Sgt. Tompkins
based on her experience, evidence of child sexual
residences:
Through training and experience,
subjects who view or collect child
pornography value their collections and
often go to great lengths to organize and
protect their collections including
concealing the images on computer
media. Your Affiant also knows through
training, knowledge and experience that
when
subjects
possessing
child
pornography conceal or delete it to avoid
detection that it is possible to recover
files and data from computer media in
hidden areas or after it has been deleted.
They do not limit themselves with
electronic images/videos and at times
have physical copies of some of their
images.
Collectors [of child pornography] will
often write down passwords to protected

48a
stored items on ledgers, paper, notepads,
is also evidence of the actual sexual
abuse of a child, and perpetrators
creating this material for possession or
distribution will frequently keep indicia
of their sexual interest in the child in the
residence, plus the necessary tools for
creation, such as props, and clothing.
We conclude that it was not unreasonable to infer that
child sex pornographers might keep evidence of their
crimes hidden in their homes. It was reasonable for
Judge Rubin, the issuing judge, to accept these
would be kept at his home.
to say when or how his address was
confirmed, we note that a similar claim was before
this Court in Braxton v. State. There, the appellant
did not challenge the affidavit for failing to state that
he lived at the given address, or even for failing to
provide a basis for why the affiant thought the
appellant would keep such evidence at his home; the
affidavit did both of those things. 123 Md. App. at 629.
why the
police believed appellant lived at the particular
Id. (emphasis in original). This
Court agreed with Braxton:
Accordingly, we hold that the mere
identification in the affidavit of
single predicate fact showing the basis

49a
for the belief the appellant resided at
that address, did not establish probable
cause to search that location. This is so
even if there was otherwise every reason
to believe that appellant committed the
armed robbery and harbored the fruits
and instrumentalities wherever he may
have lived.
Typically, an affidavit includes an
averment tying the suspect to the
targeted location on the basis of
surveillance, a check of utility records,
verification with a landlord, an address
from the phone book, or the like.
Id. at 630.
The affidavit here is distinguishable from the
one challenged in Braxton. Although it did not
records or address from a phone book, the affidavit
contains other facts that could form the basis of the
Ballinger Terrace. First, we examine the following
sentences:
In this report it is alleged Kyle S. Thompson
. . . sexually assaulted [Child 1]. The sexual
assaults occurred at 14215 Ballinger Terrace.
The reporting source would like to remain
anonymous due to fear of retributions.
These statements, taken together, infer it was
the reporting source who said the assaults took place

50a
at Ballinger Terrace, rather than being a conclusory
statement by the affiant. Second, perhaps even more
the abuse happened when her and her mother went
race,
statement who provided or confirmed Ballinger
Terrace was the location of the assault, the statement
clearly implies such information came from the police
report. Third
ted the
abused happen [sic] in a wooded area near his

of past sexual assaults. Finally, the affiant obtained
would be reasonable to infer that those records
Ballinger Terrace.
We find that the inference provided by the
affiant about the likelihood of finding evidence of a
home, the statements of past assaults occurring at
Ballinger Terrace attributed to the police report and
the C.I., and the statement that MSP records for
Thompson were checked, establish a nexus between
Thompson, his past sexual assaults, and his Ballinger
Terrace home.
Under the totality of the circumstances, we
hold the affidavit even with the challenged
statements excised provided a substantial basis
upon which the issuing judge could have found

51a
probable cause. Accordingly, no Franks hearing was
warranted.
As discussed, this determination obviates any
denial of his subsequent challenge to the sufficiency
of the warrant, as well as the good faith analysis. It
similarly precludes the need for us to determine
whether the circuit court improperly deferred to the
parallel federal case in reaching its holding on the
motion for a Franks hearing. Therefore, we conclude
that the circuit court did not commit reversible error
Franks hearing,
or in denying his challenge to the sufficiency of the
search warrant.
JUDGMENT OF THE CIRCUIT COURT
FOR
MONTGOMERY
AFFIRMED.
APPELLANT TO PAY COSTS.

52a
[ENTERED: September 25, 2018]
IN THE CIRCUIT COURT FOR MONTGOMERY
COUNTY, MARYLAND
----------------------------------------------X
:
STATE OF MARYLAND
:
:
v.
:
:
KYLE STEPHEN THOMPSON, :
:
Defendant.
:
:
----------------------------------------------X

Criminal No.
131547

Rockville, Maryland
September 25, 2018
WHEREUPON, the proceedings in the aboveentitled matter commenced
BEFORE:

THE HONORABLE TERRENCE
J. McGANN, JUDGE

APPEARANCES:
FOR THE STATE:
DERMOT GARRETT, Esq.
RYAN WECHSLER, Esq.
50 Maryland Avenue, 5th Floor
Rockville, Maryland 20850

53a
FOR THE DEFENDANT:
ISABELLE RAQUIN, Esq.
STEPHEN B. MERCER, Esq.
Raquin Mercer LLC
5906 Hubbard Drive
Rockville, Maryland 20852
*

*

*

THE COURT: Okay. All right, well thank you,
folks. Well briefed and well argued. It s an interesting
area of the law. It is not one that the courts deal with
on a regular basis and that s clear from the case law
as to why not.
The, first of all the Court finds that rule 4-252
was violated. The motions should have been filed
within 30 days after the earlier of the appearance of
counsel or the first appearance of the defendant
before the Court and absent good cause to forgive the
dereliction it bars all claims even those of
constitutional merit.
Mr. Bonsib represented the defendant from
April 17th of 2017 through June 6th of 2018 and Mr.
Bonsib certainly wasn t derelict. He filed two
particularized motions, a motion to suppress evidence
gained from the search of the defendant s residence
and a motion to suppress the defendant s custodial
statement.
The motion for the Franks hearing was filed
over 14 months past the 30 day deadline. The Court
of Appeals, a new attorney coming in stands in the
shoes of the previous attorney and doesn t gain good

54a
cause and doesn t gain any grace in the time frame
simply because they are just getting into the case.
The, what s pointed out in here and I, Mr.
Bonsib is known to the Court and we prosecuted
together in the State s Attorney s Office back in the
seventies. He was a distinguished attorney. Then
when I went to become an assistant U.S. attorney and
has been a stellar representative since he left out of
the defense bar since.
And I see here that he authored an article
analyzing how Maryland Court of Appeals has
handled cases involving Franks issues. He s a lecturer
on constitutional issues and to say that Mr. Bonsib
didn t think about the issue I think there would be no
basis for that whatsoever.
He did file motions. It turns out as things
developed there was and in my term some
irregularities or some things that on first blush where
the words uses were maybe not the proper words.
The, and I m not going to repeat everything
that s been argued to me and I see the timeline which
is on page 7 of the State s brief. The, so I and
everybody seems to be agreed upon is that when
Judge Rubin issued a warrant to search the
defendant s house on March 17th of 2017, which is
14215 Ballenger Terrace, Burtonsville, Maryland.
And this was an affidavit based on what Sergeant
Tompkins had explained and she explained the
information coming from an anonymous source.
And the Court has to grant a Franks hearing,
the defense has to make a substantial preliminary

55a
showing of a false or reckless statement or omission.
They must further show that the alleged false
statement or omission was necessary to a finding of
probable cause.
Now and it also, the State of, the case of
Fitzgerald v. State holds that a Franks hearing is a
rare and extraordinary exception. It will not be
indulged unless rigorous special requirements have
been satisfied. The burden is on the defendant to
establish knowing or reckless falsity by a
preponderance of the evidence before the evidence
will be suppressed. It s only after the defendant
makes this preliminary showing that he be entitled to
a Franks hearing.
Holland v. State, the Court of Special Appeals
in 2003 goes on to say the threshold has been
described as daunting and the proof must be more
than conclusory. It must be supported by more than
mere desire to cross-examine. And they cite
Ferguson v. State.
The Court has had the benefit of reading what s
been filed and the Court has considered the case law
in here and I ve got a pretty good clarification and I m
looking at what, listening to what both sides do agree
on and I don t think it s improper or misleading or
reckless to tell a reviewing court that you interviewed
someone when you participated in sitting there
listening and has notes as the detective, Sergeant
Tompkins did on call number 2 which was the five and
seven minute and I don t know, I guess one person
could say they were calls 2 and 3. Another said it was,
I m not quite sure what the break was, but the second
call, not the 30 minute call.

56a
And so without I said repeating because I don t
know that I could do justice to the eloquent
arguments that I heard, but just a second here. I
would certainly find that Mr. Bonsib was familiar
with Franks. He saw another name in the warrant
which was Aguilar.
If he felt that there was any reason to pursue it
he certainly could have and would have but he didn t
and Mr. Bonsib is probably as I said in the top 1
percent of criminal defense attorneys in the state.
But forgetting Mr. Bonsib and what I have
before me, I have to find that there s a preliminary
showing of false or reckless statement or omission in
this case by Sergeant Tompkins. I don t find that
there was a false or reckless statement or omission.
And I have to also find that there was, it s in
the conjunctive, just further show that the alleged
false statement or omission was necessary to a finding
of probable cause.
Based on the arguments, based on what I have
and I m also influenced to some degree to the fact that
this case was litigated, the same issues with the same
witnesses in front of a federal judge. So that is a factor
to consider.
I think I would have to put my head in the sand
not to consider that. I m not saying that I would
rubber stamp it. I m not saying that I would, that s it
res judicata of this issue but it s another factor to
consider, especially when we are considering
something that s so far past the deadline of when
motions should have been filed.

57a
And we are getting close to trial date so there
is a prejudice with respect to the trying of this case.
This case is set in early October. Is it October 10th?
MR. GARRETT: October 10th or 9th.
THE COURT: I don t know, but right around
there and so I factor all of that in but I don t find
there s been a preliminary showing and I ll therefore
find that the defense has not met its burden of
preponderance of the evidence to show false or
reckless statement or omission.
And that there was any statements or
omissions or misstatements that were necessary to a
finding of the probable cause before Judge Rubin. I ll
therefore deny the motion for a Franks hearing.
Okay. I don t really, I can t take up any other
issues today so what you might want to do is look at
your calendars, call Kathy tomorrow and see how
much time, we ll try and fit a time in.
I have a trial that is supposed to go next week
but I m not sure. I don t know what your schedules are
but Kathy will be in if you call tomorrow.
MR. GARRETT: Okay. I think Thursday is
good for me if it is for you guys.
THE COURT: You call Thursday?
MR. GARRETT: No, no, I am pretty free Thursday of
this week.
THE COURT: Well, I m not going to be free.

58a
MR. GARRETT: Okay.
THE COURT: I m off Friday and I m not going
to be able to hear, I ve got, I picked up, I m basically a
utility judge for obvious reasons. Nobody assigns me
anything right off the bat. It s just basically I pick up
scraps.
Not that this is a scrap issue but what I m
saying is, I m just standing on the sidelines and if
something, they can t get somebody to do it, they give
it to me. I have two days of civil motions for Judge
Boynton. One tomorrow and one on Thursday so I
won t, and then I m going to be gone Friday. So I won t
have this week, okay?
MR. GARRETT: Okay.
THE COURT: But we ll try and work it out and
go from there.
MR. GARRETT: Okay.
THE COURT: All right. I m going to excuse you
folks. I m going to stay on the bench and we ll bring
the attorneys in, in the other case. Do you want to
send the jury in? Thank you very much. Good job.
(Recess)
(The proceedings were concluded.)

59a
SEARCH AND SEIZURE WARRANT
IN
MONTGOMERY COUNTY, MARYLAND
TO:

Chief J. Thomas Manger or any officer of the
Montgomery County Department of Police.
Based upon the application of Detective
Sergeant Monique Tompkins, consisting of (9)
pages, dated March 17, 2017, which is
incorporated herein and made a part hereof by
reference, I find probable cause exists to
authorize a Search and Seizure as follows:

1. Within the next fifteen (15) days, you, or any
officer of the Montgomery County Department
of Police, are commanded with the necessary
and proper assistants, to search the residence
described as:
14215
Ballinger
Terrace,
Burtonsville,
Montgomery County, Maryland 20866. A twolevel town house with white siding and dark
red shutters. The main entrance is located on
the right side of the house. That door is dark
red in color with a white storm door attached.
affixed to a white wooden post over the main
entrance. There are two double hung windows
immediately to the right of the main entrance.
The search of 14215 Ballinger Terrace,
Burtonsville, Montgomery County, Maryland
20866, shall be for evidence pertaining to, but
not limited to: Sexual Abuse of a Minor (CR 3602), First Degree Sex Offense (CR 3-305), Child
Porn Promote/Distribute Criminal Law Article

60a
11-207 and Possession of Child Pornography
Criminal Law Article 11-208 this evidence
being:
Seize and examine any and all items listed
below onsite or offsite.
Seize and examine all cell phones/tablets or
other iteration of a mobile electronic device.
Seize any documents, envelopes, cancelled
checks, or papers in the name of occupants
that establishes occupancy.
Seize and examine address books,
advertisements,
brochures,
catalogs,
correspondence, documents, electronic
organizers, mailing lists, notes, organizers,
publications, receipts, records that may
indicate the distribution, barter, purchase,
receipt, sale or trade of child pornography.
Seize and examine any documents, notes,
papers, or other items containing BBS
information, chat logs, E-mail addresses, Email messages, Internet Service Provider
information, IP addresses, passwords,
Uniform Resource Locator addresses (FTP,
HTTP, News, etc.) and user profiles.
Seize and examine any books, DVD,
magazines, motion picture film of any format,
negatives, photographs, printed images
generated by computer, slides, undeveloped
film of any format and videocassettes that
may contain child pornography.
Seize and examine any electronic media
including, but not limited to Compact Flash
Memory, Smart Media Memory, Memory

61a
Sticks and PCMCIA flash media that may
contain evidence of the distribution,
production, receipt, transmission or viewing
of child pornography stored in any format.
Seize and examine any magnetic media
including, but not limited to hard drives,
floppy diskettes, Zip disks, Jaz disks,
PCMCIA drives, Bernoulli disks, Orb disks
and tapes of any format that may contain
evidence of the distribution, production,
receipt, transmission or viewing of child
pornography stored in any format.
Seize and examine any optical media
including, but not limited to CD-ROM,
CD-R, CD-RW, DVD, DVD-RAM and optical
disks of any format that may contain
evidence of the distribution, production,
receipt, transmission or viewing of child
pornography stored in any format.
(for example, but not limited to panties,
underwear) located in illogical locations or
under illogical circumstances.
Seize and examine any computer hardware
capable of analyzing, collecting, concealing,
converting,
displaying,
receiving
or
transmitting data electronically, magnetically
or optically. This hardware includes, but is
not limited to central processing units,
portable computers (i.e. laptop computers),
file servers, peripheral input/output devices
(i.e. keyboards, plotters, pointing devices,
printers, scanners and video display
monitors), storage devices capable of

62a
reading and/or writing to computer media
(i.e. electronic, magnetic or optical),
communications devices (i.e. modems, cable
modems, network adapters and wireless
communication devices), any devices or
parts used to restrict access to computer
hardware (i.e. keys and locks) and any other
piece of equipment necessary to duplicate the
functionality of the hardware at the time of
seizure (i.e. batteries, cables, instruction
manuals and power cords) that may be used
in the distribution, production, receipt,
transmission or viewing of child pornography.
Seize and examine any computer software
stored electronically, magnetically, or optically
that may be used to facilitate the distribution,
production, receipt, transmission or viewing
of child pornography and any instruction
manuals associated with the software.
To seize and examine any cameras, digital
cameras, motion picture cameras, video
cameras, web cameras and any associated
accessories (i.e. backdrops, batteries, carrying
cases, instruction manuals, lenses, lighting
equipment, meters, remote controls and
tripods) that may be used in the production
of child pornography.
Seize and/or Open any containers, envelopes,
boxes, packages, safes to examine the
contents and seize any of the aforementioned
items.
seized.

63a
This search seeks authorization to search
all computers and electronic devices
including the seizing of computers onsite
and the searching of the computers offsite.
You shall seize such evidence found there.
2. Within ten (10) days of serving this warrant, a
written Report of Execution of Warrant,
including an inventory of property seized, shall
be prepared and returned to me.
3. You may serve this Warrant at any time in day
or night. You may also serve this warrant
without first knocking and announcing police
presence
Dated: 03/17/17

Honorable Robert B. Rubin
Circuit Court Judge in and for
Montgomery County, Maryland
Initials of Applicant: MA
3056-BA-2146518
3/28/17

64a
APPLICATION FOR
SEARCH AND SEIZURE WARRANT
MONTGOMERY COUNTY, MARYLAND
TO BE SEARCHED:
14215 Ballinger
Terrace, Burtonsville, Montgomery County,
Maryland 20866. A two-level town house with
white siding and dark red shutters. The main
entrance is located on the right side of the
house. That door is dark red in color with a
white storm door attached. The numerals
wooden post over the main entrance. There are
two double hung windows immediately to the
right of the main entrance.
APPLICANT:

Detective Sergeant Monique
Tompkins ID#: 1133

JUDGE:

The Honorable Judge:
Ronald B. Rubin

DATED:

March 17, 2017

Your applicant, being first duly sworn, states the
following:
A. Detective Sergeant Tompkins has been a police
officer with the Montgomery County, Maryland
Department of Police (MCP) for over 24 years.
Detective Sergeant Tompkins is currently
assigned to the Special Victims Investigations
Division. Detective Sergeant Tompkins has
been previously been assigned to the District
Investigations, MCP Major Crimes Robbery
Section, Central Auto Theft Unit.
B. Your affiant is currently assigned to the
Special Victims Investigations Division/Child

65a
Abuse Section. Your affiant has experience
conducting sexual assault, child abuse,
robbery, assault, burglary, and narcotics
investigations. Your affiant has completed
numerous trainings to include Basic
Investigator School, Drug investigations, and
Basic Vehicle Theft Investigator School, Reid
Interview and Interrogation school.
Your affiant is applying for a search and
seizure warrant to search the above noted
premises and curtilage located in 14215
Ballinger Terrace, Burtonsville, Montgomery
County, Maryland 20866 and the search shall
be for evidence pertaining to, but not limited to
Sexual Abuse of a Minor (CR 3-602), First
Degree Sex Offense (CR 3-305), Child Porn
Promote/Distribute Criminal Law Article 11207 and Possession of Child Pornography
Criminal Law Article 11-208.
Seize and examine any and all items listed
below onsite or offsite.
Seize and examine all cell phones/tablets or
other iteration of a mobile electronic device.
Seize any documents, envelopes, cancelled
checks, or papers in the name of occupants
that establishes occupancy.
Seize and examine address books,
advertisements,
brochures,
catalogs,
correspondence, documents, electronic
organizers, mailing lists, notes, organizers,
publications, receipts, records that may
indicate the distribution, barter, purchase,
receipt, sale or trade of child pornography.

66a
Seize and examine any documents, notes,
papers, or other items containing BBS
information, chat logs, E-mail addresses, Email messages, Internet Service Provider
information, IP addresses, passwords,
Uniform Resource Locator addresses (FTP,
HTTP, News, etc.) and user profiles.
Seize and examine any books, DVD,
magazines, motion picture film of any format,
negatives, photographs, printed images
generated by computer, slides, undeveloped
film of any format and videocassettes that
may contain child pornography.
Seize and examine any electronic media
including, but not limited to Compact Flash
Memory, Smart Media Memory, Memory
Sticks and PCMCIA flash media that may
contain evidence of the distribution,
production, receipt, transmission or viewing
of child pornography stored in any format.
Seize and examine any magnetic media
including, but not limited to hard drives,
floppy diskettes, Zip disks, Jaz disks,
PCMCIA drives, Bernoulli disks, Orb disks
and tapes of any format that may contain
evidence of the distribution, production,
receipt, transmission or viewing of child
pornography stored in any format.
Seize and examine any optical media
including, but not limited to CD-ROM,
CD-R, CD-RW, DVD, DVD-RAM and optical
disks of any format that may contain
evidence of the distribution, production,
receipt, transmission or viewing of child
pornography stored in any format.

67a

(for example, but not limited to panties,
underwear) located in illogical locations or
under illogical circumstances.
Seize and examine any computer hardware
capable of analyzing, collecting, concealing,
converting,
displaying,
receiving
or
transmitting data electronically, magnetically
or optically. This hardware includes, but is
not limited to central processing units,
portable computers (i.e. laptop computers),
file servers, peripheral input/output devices
(i.e. keyboards, plotters, pointing devices,
printers, scanners and video display
monitors), storage devices capable of
reading and/or writing to computer media
(i.e. electronic, magnetic or optical),
communications devices (i.e. modems, cable
modems, network adapters and wireless
communication devices), any devices or
parts used to restrict access to computer
hardware (i.e. keys and locks) and any other
piece of equipment necessary to duplicate the
functionality of the hardware at the time of
seizure (i.e. batteries, cables, instruction
manuals and power cords) that may be used
in the distribution, production, receipt,
transmission or viewing of child pornography.
To seize and examine any cameras, digital
cameras, motion picture cameras, video
cameras, web cameras and any associated
accessories (i.e. backdrops, batteries, carrying
cases, instruction manuals, lenses, lighting
equipment, meters, remote controls and

68a
tripods) that may be used in the production
of child pornography.
Seize and/or Open any containers, envelopes,
boxes, packages, safes to examine the
contents and seize any of the aforementioned
items.
THE FOLLOWING IS GIVEN IN SUPPORT OF
THIS APPLICATION:
On March 16, 2017, The Special Victims Investigation
Division was made aware of and began an
investigation regarding a sexual assault on a minor.
In this report it is alleged Kyle S. Thompson, a 31 year
old mail, with a date of birth (4/12/1985) sexually
assaulted XXXXxxX a 4 year old female, with a date
of birth (XXXXX12) identified as his daughter. The
sexual assaults occurred at 14215 Ballinger Terrace,
Burtonsville, Montgomery County, Maryland 20866.
The reporting source would like to remain anonymous
due to fear of retributions and will hereafter be
referred to as the anonymous source.
On March 16, 2017, the writer interviewed the
anonymous source. The anonymous source stated Kyle
S. Thompson showed the anonymous source several
videos of Thompson having sexual intercourse and
performing sexual acts with his 4-year-old daughter,
XXXXXXx and two other unidentified prepubescent
females. On one specific video clip Thompson had
XXXXXx face down on the bed. XXXXXx was naked
and Thompson was anally penetrating XXXXXx with
his penis. While Thompson was sexually assaulting
XXXXXx
XXXXXx arms

69a
were tied with a belt and Thompson was putting his
penis inside her mouth. In this clip once again XXXXXx
was crying. Thompson showed the anonymous source
several other clips with two unidentified prepubescent
females. The source further stated that Thompson
had previously sexually abused XXXXXx older sister,
XXXXXx a few years prior. XXXXXx was approximately
9 years old when he sexually abused her. The writer
conducted a check with Child Protective Services and
other police agencies and could corroborate the
information given by the source regarding XXXXXx
The writer found a sexual abuse report from
Baltimore County Police dated October 9, 2015. The
report stated XXXXXx was sexually abused by her
that XXXXXx mother lied to the Police and Child
Protective Services, relating that she did not know
full name and whereabouts. Anonymous
source stated that XXXXXx disclosed that the abuse
happened when her and her mother went to
Burtonsville, Montgomery County, MD.
Thompson stated to the anonymous source the above
abuse happened in a wooded area near his house in
Montgomery County, Maryland. A check with
Maryland State Police Automated Firearms Services
revealed Thompson owns 15 firearms.
Through Training and experience, subjects who view
or collect child pornography value their collections
and often go to great lengths to organize and protect
their collections including concealing the images on
computer media. Your Affiant also knows through
training, knowledge and experience that when subjects
possessing child pornography conceal or delete it to

70a
avoid detection that it is possible to recover files and
data from computer media in hidden areas or after it
has been deleted. They do not limit themselves with
electronic images/videos and at times have physical
copies of some of their images. When digital images/
videos of the sexual assault of a child are distributed
perpetrators utilize many formats to both collect and
distribute this material. Electronic images/videos can
be stored in any number of ways electronically on any
device designed to store or record data. The use of
mobile technology to commit the crimes of
manufacturing, possession, and distribution of digital
images/videos of the sexual assault of a child has
increased in recent years. Collectors/Distributors have
been known to keep physical transactional logs written
various server based cloud accounts. Often perpetrators
with these types of images/videos will use images/videos
of child erotica (nude or scantily clad children) posed
in sexually provocative ways in order to build up to
illegal contraband or groom younger victims.
In addition, your Affiant, through training and
experience knows that subjects who engage in the
possession, distribution, production, receipt, sale,
and/or trade of child pornography will frequently make
use of computer equipment to further their activity.
Computers and Internet services enable subjects
engaging in the possession, distribution, production,
purchase, receipt, sale and/or trade of child
pornography to communicate with co-conspirators in
any region or country. Further, electronic data can
easily be copied and stored on a wide variety of
equipment to include but not limited to compact flash

71a

formats include magnet media such as but not limited
to floppy disks and diskettes. Subjects who
manufacture, distribute, view and/or collect child
pornography value their collections and often go to
great lengths to organize and protect their collections
including concealing the images on computer/storage
media, as well as making multiple back-up copies of
their collections. Collectors often will write down
passwords to protected stored items on ledgers, papers,
also evidence of the actual sexual abuse of a child, and
perpetrators creating this material for possession or
distribution will frequently keep indicia of their
sexual interest in the child in the residence, plus the
necessary tools for creation, such as props, and
clothing. Perpetrators will often keep mementos (i.e.
panties, underwear of their victims, or other child
erotica magazines) or under illogical circumstances
(no children reside or visit in the residence). In these
instances, where such items are readily apparent it is
appropriate to seize such items at the time of their
discovery to prevent the later destruction of evidence
Your Affiant also knows through training and
experience that images of child pornography can be
retained via physical items such as but not limited to;
images), magazines, magazine cutouts, and other
similar physical items.
During the initial investigation, the affiant
learned Thompson has access to at least 15 firearms
which could pose a threat to serving police officers.

72a
Furthermore, during the investigation, it appears
Thompson has previously threatened individuals that
make allegations against him, which was related to
your affiant by the anonymous source.
Based on the above facts and circumstances,
Search & Seizure Warrant to search 14215 Ballinger
Terrace, Burtonsville, Montgomery County, Maryland
20866 and the search shall be for evidence pertaining
to, but not limited to Sexual Abuse of a Minor (CR 3602), First Degree Sex Offense (CR 3-305), Child Porn
Promote/Distribute Criminal Law Article 11-207 and
Possession of Child Pornography Criminal Law
Article 11-208.
OATH
Detective Melvin Avelar, personally appeared before
me, a Judge of the Circuit Court for Montgomery
County, Maryland, on this 17th day of March 2017,
and made oath in due form of law that the contents of
this 9-page application are true and correct to the best
of her knowledge, information and belief.
/s/
Detective Sergeant Monique Tompkins
Montgomery County Police
Special Victims Investigation Division
/s/
Honorable
Circuit Court Judge in and
Montgomery County, Maryland

for

Initials of Applicant: MA
3056-BA-2146518
3/28/17

